NO:

2© - l

?
I

IN THE
SUPREME COURT OF THE UNITED STATES

MERRILEE STEWART, PETITIONER

1'V

V.

A

UL, \

RRL HOLDING COMPANY OF OHIO, ET AL„ RESPONDENTS

ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF OHIO

FILED
JAN 14 2021
SUPREMEFCOURTLn SK

PETITION FOR WRIT OF CERTIORARI

Merrilee Stewart
182 Corbins Mill Drive
Dublin, Ohio 43017
Phone: 614 395-9071
Fax: 740 965-4437
Email: Merrilee@TRGUnited.com
Merrilee Stewart, Pro Se of behalf
ofMerrilee Stewart, Petitioner

!• I
(■

I. The questions presented for review
1. Are the Courts of the State of Ohio obligated to enforce Federal Laws?
a. Whistleblower Laws designed to protect the crime victim and informants.
b. Equal Employment Opportunity Commission Right to Sue
c. The Civil Rights Act, The Fair Housing Act, Sherman and Clayton Act
2. Can the lower court in Ohio ignore and disobey an order from the higher Appeals Court? This lower
court denied the Appeals court order for a hearing and this disobedience of the lower court infringes
upon Petitioners constitutional rights protected by the First, Seventh and Fourteenth Amendments.
3. Does a citizen of Ohio have the same Duty to Report White-Collar crimes and is that citizen offered
the same protections for reporting as are afforded citizens of other states who are offered protected under
the constitution and federal laws.
a. Should a resident of the State of Ohio and a United States citizen, be afforded the same equal
constitutional protections and due process rights as are granted to a non-resident in the Courts of
the State of Ohio?
4. Can a Court of the State of Ohio inflict a lifetime sentence upon a citizen, offer no opportunity to be
heard, offer no right to appeal, and subsequently lock the doors and throw away the keys for all eternity
on this and all-future access to the courts?
a. A citizens Duty to Report White-Collar crimes is not Vexatious Litigation.
b. The Unconstitutional application of Vexatious litigator statute for retaliation against Petitioner
for fulling her Duty to report White-Collar crimes in in violation of Whistleblower laws.
c. The statute, as applied stripes Petitioner of Free Speech, Equal Access and Due Process of
Law (First, Seventh and Fourteenth Amendments)
d. Would this be subject to collateral review or Writ of Habeas Corpus?
5. How long can a Common Pleas Judge in Ohio keep a case in Stayed Status and under a preliminary
Agreed Entry before it violates the Petitioner Equal Access, Due Process, Free Speech and Federal
Laws. Is not the right to sue and defend in the courts one of the highest and most essential privileges of
citizenship and must be allowed by each state to the citizens of all other states?
See Chambers v. Baltimore & O.R.R., 207 U.S. 142 (1907)
See also McKnett v. St. Louis & S.F. Ry., 292 U.S. 230, 233 (1934).
Note: The 2011 annual report of the Ohio Supreme Court, justices noted that only 2 percent of civil
cases in the U.S. ever reach a jury. It reported the rate in Ohio was even less, about 1.3 percent, and that
the rate in Ohio has decreased every year for the past decade.
https://www.cantonrep.com/article/20130512/NEWS/3 05129922

ii.
II. Parties to the proceedings.
The caption contains the names of all the parties to the proceedings.
However, this Petition for Writ of Certiorari, in part, involves the validity of a statute of the State of
Ohio as repugnant to the Constitution and as applied in this case by authorities used for the deprivation
of the Petitioners Constitutional rights and in violation of Whistleblower Laws.
Now therefore, pursuant to Rule 29.4(b) the petition is also served on the Attorney General of the State
of Ohio, Dave Yost, by regular United States mail to the forgoing address and as is Certified by the
separately submitted Proof of Service.

.1.

111.

TABLE OF CONTENTS
I. The questions presented for review

1

II. Parties to the proceedings

n

Table of Contents

in

Opinions

1V-V

Table of Authorities

vi-x

III. Citations of the opinions and orders entered in the case by courts

1

IV. The basis for jurisdiction

2

V. Constitution and Legal Principles

2

VI. Statement of the Case

4

VII. Reason for Granting the Writ

17

VII. Conclusion

18

APPENDIX

1-101

■J

IV.

OPINIONS; List of all proceedings in state and appellate courts
that are directly related to the case in this Court
and challenges the same convictions as is challenged in this court.
Appendix
A

Judgement Entry
Docket no.
Court
♦Pages 1-9
Mailed 08/20/2020
2020-0615
The Supreme Court of Ohio
Filed 08/18/2020
2020-0hio-4045
Case Caption: RRL Holding Company of Ohio LLC, et al. v. Merrilee Stewart, Jurisdictional
Appeal Filed: 05/14/2020
Description: Motion for reconsideration of 6/29/2020 (appeal from 10th District Court of
Appeals 20AP44 judgement of 2/20/2020)_______________________________________
Appendix
B

Judgement Entry
Docket no.
Court
♦Pages 10-14
Filed 6/17/2020
2020-0615
The Supreme Court of Ohio
2020-Ohio-3275
Case Caption: RRL Holding Company of Ohio, et al. v. Merrilee Stewart, Jurisdictional
Appeal Filed: 05/14/2020
Description: Appeal from 10th District Court of Appeals 20AP44 judgement of 2/20/2020.
Appendix
C

Judgement Entry
02/20/2020

Docket no.
20AP44

Court
♦Pages 15-18
Tenth District Court of Appeals
Franklin County, Ohio
Case Caption: RRL Holding Company of Ohio, et al. v. Merrilee Stewart
Description: Request for reconsideration from Franklin County Ohio Court of Common
Pleas Civil Division, Case No. 18CV7212______________________________________
Court
♦ Pages 19-21
Tenth District Court of Appeals
Franklin County, Ohio
Case Caption: RRL Holding Company of Ohio, et al. v. Merrilee Stewart
Description: Appeal from Franklin County Ohio Court of Common Pleas Civil Division, Case
No. 18CV7212
Appendix
D

Judgement Entry
01/23/2020

Docket no.
20AP44

OPINIONS: List of all proceedings in state and appellate courts
that are directly related to the case in this Court.
(continued from page ii)
Appendix
E

Judgement Entry
01/23/2020

Docket no.
19AP202

Court
♦ Pages 22-60
Tenth District Court of Appeals
Franklin County, Ohio

Case Caption: RRL Holding, et al. v. Stewart, et al.
Description: Appeal from Franklin County Ohio Court of Common Pleas Civil Division, Case
No. 15CV1842 special proceedings_______________________________________________
Appendix
F

Judgement Entry
12/20/2019

Docket no.
18CV7212

Appendix
G

Judgement Entry
03/15/2019

Docket no.
15CV1842

Court
♦ Pages 61-73
Franklin County Ohio Court of
Common Pleas Civil Division
Case Caption: RRL Holding Company of Ohio, et al. v. Merrilee Stewart.
Description: Final Appealable order(s) from Franklin County Ohio Court of Common Pleas
Civil Division, Case No. 18CV7212_____________________________________________
Court
♦ Pages 74-86
Franklin County Ohio Court of
Common Pleas Civil Division

Case Caption: RRL Holding, et al. v. Stewart, et al.
Description: Appealable order from special proceedings from Franklin County Ohio Court
of Common Pleas Civil Division, Case No. 15CV1842______________________________
Appendix
H

Judgement Entry
11/10/2015

Docket no.
15CV1842

Court
♦ Pages 87-95
Franklin County Ohio Court of
Common Pleas Civil Division

Case Caption: RRL Holding, et al. v. Stewart, et al.
Description: Stay Order from Franklin County Ohio Court of Common Pleas Civil Division,
Case No. 15CV1842
Appendix
I

Judgement Entry
05/28/2015

Docket no.
15CV1842

Court
♦ Pages 96-101
Franklin County Ohio Court of
Common Pleas Civil Division

Case Caption: RRL Holding, et al. v. Stewart, et al.
Description: Preliminary Agreed Entry from Franklin County Ohio Court of Common Pleas
Civil Division, Case No. 15CV1842______________________________________________

V.
I

VI.

(

TABLE OF AUTHORITIES

Crosby v. Beam, 548 N.E.2d 217 (Oh. 1989)
Atkinson v. Grumman Ohio Corp. (1988), 37 Ohio St.3d 80, 84, 523 N.E.2d 851,
855

8
6, 12

Blakemore v. Blakemore, 5 Ohio St.3d 217, 219 (1983).

11

Boedeker v. Rogers, 746 N.E.2d 625, 629 (Oh. App. 8 Dist. 2000)

12

Cent. Ohio Transit Auth. v. Timson (1998), 132 Ohio App.3d 41, 724 N.E.2d
458.

12

Chambers v. Baltimore & O.R.R., 207 U.S. 142 (1907)

l

Chauffeurs, Teamsters and Helpers Local 391 v. Terry, 494 U.S. 558 (1990)

7

Crosby v. Beam, 47 Ohio St. 3d at 108.

8

Curtis v. Loether, 415 U.S. 189, 194 (1974).

7

Feltner v. Columbia Pictures Television, 523 U.S. 340 (1998)

7

Jones v. AlfredH. Mayer Co., 392 U.S. 409 (1968)

2

Jones v. Cunningham, 371 U.S. 236 (1963)

6

Kenner v. C.I.R., 387 F.3d 689 (1968)

3

Marquez vs. Varela, 92 Phil. 373

13

McKnettv. St. Louis &S.F. Ry., 292 U.S. 230, 233 (1934)

i

Michel v. Louisiana, 350 U.S. 91, 93 (1955) (quoting Parker v. Illinois, 333 U.S.
571,574(1948))

7

Moldovan v. Cuyahoga Cty. Welfare Dept. (1986), 25 Ohio St.3d 293, 25 OBR
343, 496 N.E.2d 466

12

Vll.

TABLE OF AUTHORITIES continued

Morrison v. State, Mo. App., 252 S.W.2d 97, 101

6

NAACP v. American Family Mut. Ins. Co., 978 F.2d 287, 290 (7th Cir. 1992)

2

Palmer v. Canadian Nat’l R.R., ARB No. 16-035, ALJ NO. 2014-FRS-154 at 53
(ARB Sept. 30, 2016)

3

Pernell v. Southall Realty Co., 416 U.S. 363 (1974)

7

Thorpe, supra note 21, at 3813

6

Timson, supra, 132 Ohio App.3d at 50, 724 N.E.2d at 463-464

12

Trafficante v. Metro Life Ins Co, 409 U. S. 205, 211 (1972)

2

Waley v. Johnson (1942)

6

West v. Household Life Ins. Co., 170 Ohio App.3d 463,469, 2007-Ohio-845
(10th Dist.)

8

Wooddellv. International Bhd. ofElectrical Workers Local 71, 502 U.S. 93
(1991)

Civil Rights Act
Delaware Declaration of Rights (1776)

2, 3, 12
6

Dodd-Frank Wall Street Reform and Consumer Protection Act H.R. 4173 § Y

3,9

Dodd-Frank Wall Street Reform and Consumer Protection Act H.R. 4173 § 1057
(a) (1)

3

Dodd-Frank Wall Street Reform and Consumer Protection Act H.R. 4173 § 369
(1) (A)

3.9

viii.
TABLE OF AUTHORITIES continued

First Amendment to the United States Constitution

2,3

Fourteenth Amendment to the United States Constitution

2

Ohio Constitution Article IV, Section 3(B)(4)

9

Ohio Constitution Section 16, Article I of the

12

Ohio Rev. C. § 1705.36 Merger or consolidation

8

Ohio Rev. C. § 1705.391

8

Ohio Rev. C. § 1705.41 (A)

8

Ohio Rev. C. § 1705.41 (B)

8

Ohio Rev. C. § 1705.41 (B)

8

Ohio R.C. 2323.52(F) Vexatious litigator

17

Ohio Rev. Code Ann.§§ 2505.02 to 2505.03

10

Sarbanes-Oxley Act. Code Sec. 7623(d) as amended by act Sec. 1405

3

Seventh Amendment to the United States Constitution

2

Taxpayer First Act of 2019

3

Title 18, U.S.C. Section 242

8

Title 18, U.S.C., Section 241

3

U.S. Code §4101(1).

3

U.S. Code §4101(1).

3

U.S.C.S. Const, amend. V (1998)

7

U.S.C.S. Const, art. I, § 9, cl. 2 (1998)

8

IX.

TABLE OF AUTHORITIES continued

15 U.S.C. § 78u-6(a)(6)

4

18 U.S. Code § 4 Misprision of an anti-trust felony and Misprision of a felony

11

18 U.S.C. § 1961 RICO

11

18 U.S.C.A. § 371 Conspiracy

11

28 U.S. Code § 2255

7

28 U.S.C. § 1257(a).

1

28 U.S.C. §§ 2241(c), 2254(a)

6

31 U.S.C. §§ 3729 - 3733 False Claims Act

3

42 U.S.C. § 1983 - 1988

3

42 U.S.C. § 1983 - 1988

3

42 U.S.C. 3601 Fair Housing Act

2, 17

Black’s Law Dictionary, 5th Edition, on page 240

9

Creating an American Property Law: Alienability and Its Limits in American
History" (PDF). Harvard Law Review. 120: 385. Retrieved 31 October 2017

7

In the 2011 annual report of the Ohio Supreme Court, justices noted that only 2
percent of civil cases in the U.S. ever reach a jury. It reported the rate in Ohio was
even less, about 1.3 percent, and that the rate in Ohio has decreased every year for
the past decade. https://www.cantonrep.com/article/20130512/NEWS/305129922

l.

Moore's Federal Practice, 2d ed., p. 512, ^ 60.23

3

Page 1
III. Citations of the opinions and orders entered in the case by courts.
The Opinion, to decline jurisdiction, of the Ohio Supreme Court on Case No. 2020-0615, was filed
on August 18, 2020 and mailed to the Petitioner on August 20, 2020. The Ohio Supreme Court August
18, 2020 Case Announcements No. 2020-0hio-4045 on Case No. 2020-0615 was emailed to Petitioner
on August 18, 2020 at 9:05AM. See Appendix A.
The Opinion, to vacate and remand for hearing of the Tenth District Court of Appeals Franklin
County, Ohio Case No. 19AP202 entered on January 23, 2020 from the Appeal from Franklin County
Ohio Court of Common Pleas Civil Division, Case No. 15CV1842 special proceedings is being ignored
by Common Pleas court Judge Kim J Brown. The Judge refuses to comply with the order of the Tenth
District Court of Appeals and afford the Petitioner a hearing, Franklin County, Ohio Case No. 19AP202.
See Appendix E.
Both of the above referenced conflicting Opinions originated from the same lower court Common
Pleas Judge Kim J Brown in her split cases 15CV1842 and 18CV7212.
Furthermore, both of the above reference split cases involve lower court Common Pleas Judge Kim J
Brown’s infliction of punishment and judgement upon the Petitioner for fulfilling her duty to report
White-Collar Crimes on going at Respondent Firefly Agency (“Firefly”) to the proper authorities,
(emphasis) This duty to report is also a protected activity under Federal Whistleblower laws.
The duty to report and the protected activity of reporting White-Collar Crimes started with the local
authorities in Ohio and included: 1) the Ohio Civil Rights Commission, 2) the Columbus Police
Department Economic Crime Division, 3) the Insurance Companies and 4) to the Ohio Department of
Insurance Fraud Division.
This expanded to the Federal Level as Firefly does business in 24 states and the reported Crimes
involved $8 to $10 Million in Embezzlement, $3 to $5 Million in Tax Evasion, Mail Fraud and Overt
Discrimination forced upon the suppliers to withhold products and services from citizens of protected
classes in the underserved communities who fail to meet Firefly’s “Affluent Middle-Class Rules”.
The Federal authorities included the Department of Justice, the Security and Exchange Commission
Anti-Trust Division, the United States Department of Treasury Internal Revenue Service and the Federal
Bureau of Investigations.
IV. The basis for jurisdiction.
This Court’s jurisdiction is drawn from 28 U.S.C. § 1257(a).

Page 2
V. Constitution and Legal Principles.
A. The First, Seventh and Fourteenth Amendment to the United States Constitution
B. The Civil Rights Act, The Fair Housing Act. The Fair Housing Act (Title VIII of the Civil Rights
Act of 1968), 42 U.S.C. §§ 3601-3619 (1976), was enacted in 1968, the same year that the Supreme
Court held that the Civil Rights Act of 1866, 42 U.S.C. §§ 1981-1982 (1976), banned private as well
as public housing discrimination. Jones v. AlfredH. Mayer Co., 392 U.S. 409 (1968).
The Civil Rights Act guarantees all citizens, regardless of race or color, protection of their civil
rights, such as the right to file suit, make and enforce contracts, and to buy, sell, and inherit real and
personal property. The Supreme Court has recognized that the Fair Housing Act “FHA” promotes a
“policy that Congress considered to be of the highest [national] priority.” (emphasis) See Trafficante
v. Metro. Life Ins. Co., 409 U.S. 205, 211 (1972).
“The FHA seeks to eliminate unfair discrimination such as illegal redlining, the practice of either
declining to write insurance or charging higher rates for people who live in particular areas, especially
those with large or growing minority populations.” See, e.g., NAACP v. American Family Mut. Ins.
Co., 978 F.2d 287, 290 (7th Cir. 1992).
In 2015, the U.S. Supreme Court ruled 5-4 it was acceptable to use “disparate impact” in Fair
Housing Act enforcement. The U.S. Supreme Court said people who file housing-discrimination suits
don’t have to show they were victims of intentional bias, in a blow to lenders and insurers.
The 5-4 ruling upholds a category of U.S. Fair Housing Act lawsuits that civil rights groups said are
especially important. The court said plaintiffs can base their suits on statistical evidence that a disputed
policy has a “disparate impact” on a minority group. The standard would apply to anyone or any
company, whether sellers, landlords, mortgage lenders or property insurers.
Meaning, if insurers/brokers/aggregators/clusters treat different classes of people differently, whether
intentional or not, discovery and ultimately damages can be demanded, using a legal standard called
"disparate impact".
The term "disparate impact" refers to what happens when businesses give certain classes of people an
advantage over other people, even if done unintentionally (i.e., Firefly’s “Affluent Middle-Class Rule”).
It is also a term for a quantifiable standard of proof used in some legal cases in which someone claims a
business practice has a discriminatory effect.
D. Deprivation of constitutional rights under 42 U.S.C. § 1983 - 1988.
E: Conspiracy Against Rights Title 18, U.S.C., Section 241. When two or more persons to conspire to
injure, oppress, threaten, or intimidate any person of any state, territory or district in the free exercise or
enjoyment of any right or privilege secured
to him/her by the Constitution or the laws of the United States, (or because of his/her having exercised
the same).

Page 3
V. Constitution and Legal Principles - continued.
F: Fraud upon the Court. All attorneys and judges are officers of the court. Under Federal law, when
any officer of the court has committed "fraud upon the court", the orders and judgment of that court are
void, of no legal force or effect.
See Kenner v. C.I.R., 387 F.3d 689 (1968); 7 Moore's Federal Practice, 2d ed., p. 512, | 60.23. The 7th
Circuit further stated "a decision produced by fraud upon the court is not in essence a decision at all, and
never becomes final."
G: Whistleblower Protection. Courts have provided federal, state, and local government whistleblowers
protection under the Civil Rights Act of 1871, First and Fourteenth Amendments, and witness protection
laws.
Whistleblower protection is not granted based upon the outcome of the criminal investigations and the
protections are not limited to employees. In fact, the Taxpayer First Act of 2019 (“TFA”) protects tax
whistleblowers against retaliation. The TFA amends the Code to extend anti-retaliation provisions to
Internal Revenue Service whistleblowers similar to those that are provided to whistleblowers under the
False Claims Act and the Sarbanes-Oxley Act. Code Sec. 7623(d) as amended by act Sec. 1405.
As is customary, the standard is low and “broad and forgiving” in that the protected activity need only
play some role, and even an “insignificant” or “insubstantial” role suffices. Palmer v. Canadian Nat’l
R.R., ARB No. 16-035, ALJ NO. 2014-FRS-154 at 53 (ARB Sept. 30, 2016) Once the whistleblower
proves that their protected conduct was a contributing factor in the adverse action, the employer can
avoid liability only if it proves by clear and convincing evidence that it would have taken the same
adverse action in the absence of the whistleblower engaging in protected conduct.
Firefly offers products and services to consumers as is regulated by Dodd-Frank Wall Street Reform
and Consumer Protection Act H.R. 4173 § V. Petitioner is a documented “whistleblower” as defined by
Dodd-Frank Wall Street Reform and Consumer Protection Act § 922, See 15 U.S.C. § 78u-6(a)(6) and
seeks protection under Dodd-Frank Wall Street Reform and Consumer Protection Act H.R. 4173 § 1057
(a) (1) and restitution for retaliation, defamation and industry blacklisting as is protected in the DoddFrank Wall Street Reform and Consumer Protection Act H.R. 4173 § 369 (1) (A), The United States
Constitution and other Federal Laws and alleges Defamation by Respondents as is defined in U.S. Code
§4101(1).
Respondents do not deny that the protected activities of Ms. Stewart occurred, but rather attack her
rights to report the criminal allegations and support the “right to retaliate” against said protected activity,
which is exactly why whistleblower protections are in place.

Page 4
VI. Statement of the Case.
A. Prelude: The ongoing attacks upon the Petitioner in the State Court case(s), continue to occur in a
closed docket and center around punishment for the protected activity of Ms. Stewart fulfilling her duty
to report White-Collar crimes to the proper authorities.
When efforts to internally implement corrective action failed, Ms. Stewart reported the WhiteCollar Crime(s), that had been identified by the corporate attorney, to the appropriate State of Ohio
regulatory and investigative authorities including: 1) Ohio Department of Insurance, Mary Taylor,
Lieutenant Governor and Commissioner of Insurance in a face-to-face meeting with the Enforcement
Division, Thomas C. Neiswander, Supervisor and Mathew Taylor, Investigator, February 5, 2015 and
followed up with hundreds of substantiating documents submitted by the law office of Thompson Hine,
2) the Ohio Attorney General Mike DeWine in a face-to-face meeting with Matthew Hilbert on
December 3, 2015 and subsequently with a formal Ohio Attorney General Organized Crime Complaint
on March 31, 2017 and a formal Consumer Complaint on August 2, 2017, 3) to Ohio Civil Rights, case
number 41835 06102015; 22A-2015-02568C on June 10, 2015, 4) to the Columbus Ohio Economic
Crime Division, Sargent Chris Bond on July 27, 2016 complaint: 163056538, and finally 5) with a
report of the known and documented embezzlement involving employee dishonesty to Hartford
Insurance on July 18, 2016 claim number CP16918233 for the years 2009-2014 and on July 19, 2016 to
Liberty Mutual Insurance claim number 105599470 for the years prior to 2009.
Subsequently, reporting expanded to the Federal Level including the Department of Justice, the
Security and Exchange Commission Anti-Trust Division, the United States Department of Treasury
Internal Revenue Service and the Federal Bureau of Investigations.
First, at the lower Common Pleas State Court, Respondents sought and obtained sanctions and
attorney fees when Ms. Stewart made reports of the identified White-Collar crimes involving Firefly to:
1) the Ohio Civil Rights Commission; 2) the Columbus Ohio Police and 3) Hartford and Liberty Mutual
Insurance.
On appeal, the State Court Tenth District Court of Appeals, the attorney fees and sanctions were
vacated and the case was remanded for a hearing. However, Judge Kim J Brown at the lower Common
Pleas State Court refused to comply with the appeals court order and refused Ms. Stewart the ordered
hearing (emphasis).
Second, at the lower Common Pleas State Court, with the concert of effort of Judge Kim J
Brown and attorney James R Carnes of Shumaker, Loop & Kendrick, a second case was opened, once
again seeking attorney fees and a declaration of meritless litigator for the very same protected activity of
Ms. Stewart fulfilling her duty to report White-Collar Crimes ongoing at Firefly to: 1) the Ohio Civil
Rights Commission; 2) the Columbus Ohio Police and 3) Hartford and Liberty Mutual Insurance. This
also included the report to the Ohio Department of Insurance.

Page 5
VI. Statement of the Case - continued.
Petitioner was never granted due process rights, discovery, a hearing, or a trial. Judge Kim J.
Brown awarded attorney fees, declared Ms. Stewart to be a Vexatious Litigator and locked the door,
threw away the key and denied Petitioner any future access to the courts from now until the end of time
with no right to appeal.
To be clear, the purported meritless claims (vexatious litigator) are not stemming from any
litigation initiated by Petitioner but rather from the duty to report and protected activity of reporting
White-Collar Crime(s), witnessed first-hand by Ms. Stewart in her management capacity as President of
the Firefly in 2013-2014 and collaborated in writing by the (former) attorney who completed an at-risk
evaluation of Firefly’s business practices.
Ms. Stewart did attempt to internally correct the at-risk business practices, which triggered
immediate retaliation and seizure of her only sources of income, that being, employment at Firefly and
her minority ownership shares in Respondent RRL. RRL at this time wholly owned Firefly.
Six Years later, Respondents continue to hold Ms. Stewart’s minority ownership shares under
seize and even though she was issued an Equal Employment Opportunity Commission Right to Sue for
her employment law and retaliation claims, Judge Kim J Brown at the lower Ohio State Common Pleas
Court refuses to lift the Stay order and allow the proper litigation of all claims for all parties (emphasis).
Third, Judge Kim J Brown refuses to open the docket, allow finality or eliminate the five-yearold Preliminary Agreed Entry of May 28, 2015, even though the status quo was already violated by
Firefly when they made RRL a dead entity.
Finally, Respondents obtained yet another special proceeding, in this closed docket, to inflict
additional punishment upon Petitioner involving the same duty to report Firefly’s White-Collar Crime to
Hartford Insurance. Notwithstanding Judge Kim J Brown refuses to abide by the Tenth District Court’s
remand for a hearing on the same issue of the Hartford Insurance Claim(s).
B. Specification of the stage in the proceedings when the federal questions sought to be reviewed
were raised.
1. The Ohio Supreme Court Motion for Reconsideration of Jurisdiction Case No. 2020-0615,
Judgement Entry Mailed 08/20/2020, Filed 08/18/2020 Announcement No. 2020-0hio-4045 (Appendix
A): The Federal questions raised included:
a. Vexatious Litigator Statute, as applied is unconstitutional. (Quotedfrom Motion for
reconsideration, federal questions raised)
“The implementation of the Vexatious Litigator Statute in the State of Ohio results in an
unremovable derogatory branding, forever branding a citizen, resulting in permanent individual
discrimination in direct conflict with the rights granted to all people by the Constitution of the United
State of America. What is that right? The guaranteed access to justice and the inalienable right to a
hearing of the facts in all cases of law, civil and criminal. This is a protected right in the Constitution of
the United States of America.
If the door is shut, locked and the key is thrown away at the Franklin County Common Pleas
Court Level and the forever branded citizen no longer has access to a direct appeal then the

Page 6
VI. Statement of the Case - continued “§ B: Federal Questions Raised”.
citizens’ rights and access to the United States Supreme Court for these federal constitutional claims are
infringed upon.
State of Ohio Vexatious Litigator Statute, as implemented, has deprived and denied Appellants
inalienable right to property and “No person shall be deprived of life, liberty, or property, without due
process of law.” [U.S.C.S. Const, amend. V (1998).]
These fundamental rights are endowed on every human being by his or her Creator, and are often
referred to as “natural rights.” These rights which are not capable of being surrendered or transferred
without the consent of the one possessing such rights. Morrison v. State, Mo. App., 252 S.W.2d 97, 101.
"Creating an American Property Law: Alienability and Its Limits in American History" (PDF).
Harvard Law Review. 120: 385. Retrieved 31 October 2017. “[] all men have certain inherent rights []
namely, the enjoyment of life and liberty, with the means of acquiring and possessing property. 7
Thorpe, supra note 21, at 3813.
The Delaware Declaration of Rights of September 11, 1776, indicated “[t]hat every member of
society hath a right to be protected in the enjoyment of life, liberty and property.” Delaware Declaration
of Rights (1776), reprinted in Sources, supra note 14, at 338.
See also When a state provides an appellate review process, the procedures used to implement appellate
review must comply with the constitutional dictates of due process and equal protection. Atkinson v.
Grumman Ohio Corp. (1988), 37 Ohio St.3d 80, 84, 523 N.E.2d 851, 855.
b. Habeas corpus cannot be revoked in the case of a citizen. (Quotedfrom Motion for
reconsideration, federal questions raised)
“The privilege of the writ of habeas corpus shall not be suspended, unless when in cases of
rebellion or invasion the public safety may require it.” [U.S.C.S. Const, art. I, § 9, cl. 2 (1998).]
Designed to protect people against arbitrary seizures, and thus guaranteeing the legitimacy of the
judicial system as it is implemented.
Habeas corpus, or the Great Writ, is the legal procedure that keeps the government from holding
you indefinitely without showing cause. (As in the C.P.C.15CV1842) The Founders of our nation
believed habeas corpus was so essential to preserving liberty, justice, and democracy that they enshrined
it in the very first article of the United States Constitution.
The U.S. Supreme Court in the case of Waley v. Johnson (1942) interpreted this authority
broadly to allow the writ to be used to challenge convictions or sentences in violation of a defendant's
constitutional rights where no other remedy was available.
In 28 U.S.C. §§ 2241(c), 2254(a). “Custody” does not mean one must be confined; a person on
parole or probation is in custody. Jones v. Cunningham, 371 U.S. 236 (1963).
c. The Seventh Amendment and parallel split cases. (Quotedfrom Motion for reconsideration,
federal questions raised).
The Seventh Amendment to the United States Constitution ensures the right to a trial by jury
shall be preserved in any civil lawsuit involving claims valued at more than $20.
Furthermore, there can be no finding of fact when the common Pleas Court refuses to lift the stay
and yet the court allowed Appellees to inflict upon Appellant a parallel split case involving the same set
of facts and circumstances with the very same judge.
Do Ohio Courts abide by the Seventh Amendment of the United States Constitution? Should
State Courts be mandated to abide by the Seventh Amendment of the United States

Page 7
VI. Statement of the Case - continued “§ B: Federal Questions Raised”.
Constitution? Is Five Years an excessive amount of time to wait to enter the discovery phase on a case,
have an opportunity to defend, receive an answer to a counter claim and have a trial by jury? Is Five
Years in a preliminary agreed entry to not compete excessive? How were Respondents allowed to split
cases involving the same set of facts and circumstances?
When a state court is enforcing a federally created right, of which the right to trial by jury is a
substantial part, the state may not eliminate trial by jury as to one or more elements.
Illustrative of the Court’s course of decision on this subject are two unanimous decisions holding
that civil juries were required, one in a suit by a landlord to recover possession of real property from a
tenant allegedly behind on rent, the other in a suit for damages for alleged racial discrimination in the
rental of housing in violation of federal law. In the former case, the Court reasoned that its Seventh
Amendment precedents “require[d] trial by jury in actions unheard of at common law, provided that the
action involves rights and remedies of the sort traditionally
enforced in an action at law, rather than in an action at equity or admiralty.” See Pernell v. Southall
Realty Co., 416 U.S. 363 (1974).
See also Curtis v. Loether, 415 U.S. 189, 194 (1974). “A damage action under the statute sounds
basically in tort—the statute merely defines a new legal duty and authorizes the court to compensate a
plaintiff for the injury caused by the defendants’ wrongful breach. .. [Tjhis cause of action is analogous
to a number of tort actions recognized at common law.” Id. at 195. See also
Chauffeurs, Teamsters and Helpers Local 391 v. Terry, 494 U.S. 558 (1990) (suit against union for back
pay for breach of duty of fair representation is a suit for compensatory damages, hence plaintiff is
entitled to a jury trial); Wooddell v. International Bhd. of Electrical Workers Local 71, 502 U.S. 93
(1991) (similar suit against union for money damages entitles union member to jury trial; a claim for
injunctive relief was incidental to the damages claim); Feltner v. Columbia Pictures Television, 523 U.S.
340 (1998) (jury trial required for copyright action with close analogue at common law, even though the
relief sought is not actual damages but statutory damages based on what is “just”).
d. Collateral Review, Due Process Clause, unlawful detention, permanent branding, no right to
appeal. (Quotedfrom Motion for reconsideration, federal questions raised)
The overt discrimination including the Denial and infringement of Appellant’s constitutional
rights renders the judgment(s) vulnerable to collateral attack. Remedies available to Petitioner include
28 U.S. Code § 2255 and the Constitution of the United States of America.
Accordingly, the court shall vacate and set the judgment aside.
Under the Due Process Clause, prisoners must have “a reasonable opportunity to have the issue
as to the claimed right heard and determined,” Michel v. Louisiana, 350 U.S. 91, 93 (1955) (quoting
Parker v. Illinois, 333 U.S. 571, 574 (1948)).
Is not the Vexatious Litigate permanent branding, an unlawful detention that lasts an eternity,
from now until the end of time, inflicted upon the accused with no right to appeal, handcuffed and
locked behind doors with the key thrown away? Has that not been utilized at the hands of Shumaker,
Loop & Kendrick to silence and discredited the Whistleblower, Appellant Merrilee Stewart?
e. Fraud upon the courts. (Quotedfrom Motion for reconsideration, federal questions raised)

Page 8
VI. Statement of the Case - continued “§ B: Federal Questions Raised”.
Shumaker, Loop & Kendrick’s failure to follow the laws in the State of Ohio with the merger of
Respondent RRL out of existence on December 31, 2018. In response to a question from James R.
Carnes of Shumaker, Loop & Kendrick about Firefly, former/selling RRL member Fritz Griffioen
testified on July 9, 2019 (C.P.C. 15CV182) that Firefly was a renaming of RRL and a name change for
re-branding and marketing. It was after the hearing, in August 2019, when Ms. Stewart discovered the
State Document that showed RRL was “Merged Out of Existence”.
This undisclosed event of December 31, 2018, facilitated by Shumaker, Loop & Kendrick, made
RRL a Dead Entity. See State of Ohio Certificate, Ohio Secretary of State, Jon Husted, 1658734, Doc:
201836501222, effective 12/31/2018 RRL Dead.
Respondent and a new set of owners, six (6) total, had seized 100% of the assets of RRL, making
Firefly a non-affiliate and third-party to the RRL Buy/Sell Agreement. This undisclosed change of
control was done in violation of the RRL Buy/Sell Agreement and the Laws of the State of Ohio that
serve to protect the known and anticipated creditors and dissenting members. See Ohio Rev. C. §
1705.36, Ohio Rev. C. § 1705.41 (A). See also West v. Household Life Ins. Co., 170 Ohio App.3d
463,469, 2007-Ohio-845 (10th Dist.). Unless a third-party's enforcement of an agreement was
"contemplated by the parties and sufficiently identified" in the agreement, a third-party may not enforce
an arbitration agreement between two other entities.
Immediately upon discovery of this cognizable event (emphasis), that the former controlling and
selling members of RRL had made RRL a Dead Entity, Ms. Stewart issue a demand pursuant to Ohio
Rev. C. § 1705.41 (B) and offered seven opportunities, seven (7) dates, to settle the Buy/Sell agreement,
to be facilitated by the offices of Thompson Hine LLP in Columbus, Ohio.
See Ohio Rev. C. § 1705.41 (B) the dissenting member shall deliver to the company a written
demand for payment and Ohio Rev. C. § 1705.391 Legal effect of conversion - action to set aside.
The controlling members of Appellee RRL, Fritz Griffioen, Bill Griffoen and Rod Mayhill,
redeemed their shares in RRL for l/6th ownership each in a new entity with a new FEIN XX-XXX4159,
non-affiliate Firefly, with three new owners (Hans Griffioen, Ben Griffioen and Andy Kirkham). These
former members misused their powers for personal/family interests at the expense of the company in
violation of “the standard of a duty to be of the ‘utmost good faith and loyalty.” Crosby v. Beam, 47
Ohio St. 3d at 108.
The laws of the State of Ohio and the RRL Buy/Sell Agreement specify a required lump sum
payment to Ms. Stewart prior to making RRL a Dead Entity. RRL’s controlling/selling members failed
to perform as required by contract and law.
In December 2018 Ms. Stewart was an unredeemed RRL Member with a balance owing of
$524,475.00 plus interest. Pursuant to the RRL Buy/Sell Agreement, the uncured default on the lump
sum requirement makes all unredeemed RRL shares active with full rights and privileges (emphasis).

Page 9
VI. Statement of the Case - continued “§ B: Federal Questions Raised”.
As of December 31, 2018, Firefly operates under a new FEIN XX-XXX4159 (emphasis). If this
action had been a mere “Named Change” as sworn to under loath by Fritz Griffieon, there would be no
change of FEIN. The new owners now own and control 100 percent of all of RRL assets accomplished
in part by fraud, including Insurance Fraud with the ownership and beneficiary change to $6 Million in
life insurance contracts under the guise of a “name change” only. Respondents also seized the more
than $5 million in annual recurring revenue created by a network of contracted suppliers by fraudulently
representing Firefly as a “name change” only. The contracted suppliers and the $5 million in recurring
revenue belong to RRL, not Firefly.
Ms. Stewart is now the only unredeemed member of RRL.
f. Whistleblower Protection. (Quotedfrom Motion for reconsideration, federal questions raised)
Whistleblower protection: Ms. Stewart also seeks restitution for retaliation, defamation and
industry blacklisting as is protected in the Taxpayer First Act, the Dodd-Frank Wall Street Reform and
Consumer Protection Act H.R. 4173 § 369 (1) (A), the United States Constitution and other State and
Federal Laws. Petitioner alleges Defamation by the former/selling RRL member Fritz Griffioen as is
defined in U.S. Code § 4101(1).
2. The Ohio Supreme Court Jurisdictional Appeal, Case No. 2020-0615, Judgement Entry Filed
6/17/2020 Announcement No. 2020-Ohio-3275 (Appendix B) The Federal questions raised included:
a. Conflicting judgement from two or more court of appeals warrants Supreme Court Review.
(Quotedfrom Memorandum, federal questions raised)
Article IV, Section 3(B)(4) of the Ohio Constitution provides for review and final determination
by the Supreme Court when judgement is in conflict. Is appeal as a right on a final appealable order
grounds for an appeal? Do two irreconcilable Outcomes on the same factual or legal issues turn
potentially wrong decisions into clearly wrong ones?
Appellant moved the Supreme Court of Ohio to review the existing conflicting
judgement/decisions from two court of appeals cases as these two irreconcilable outcomes turn
potentially wrong decisions into clearly wrong ones. 1) this conflict is "upon the same question”, 2)
involves the same rule of law, 3) is applicable to the same crime reports with judgement(s) in conflict
cited in the forgoing paragraphs pursuant to App. R. 25.
Whenever the judges of a court of appeals find that a judgment upon which they have agreed is
in conflict with a judgment pronounced upon the same question by any other court of appeals of the
state, the judges shall certify the record of the case to the supreme court for review and final
determination.
The conflicting judgements are stemming from the same Common Pleas Lower Court Judge Kim
J. Brown, involving the same parties and the same protected activity and duty to report White-Collar
crimes to the authorities.
In both cases, the Respondents made allegations and sought retributions against Ms. Stewart for
the “SAME” protected activity and legal duty to report White-Collar crimes to: 1) Ohio Civil Rights
Commission, 2) the Columbus Police Department and 3) the Insurance Companies.

Page 10
VI. Statement of the Case - continued “§ B: Federal Questions Raised”.
This Tenth District Court of Appeals Case No. 20-AP-044 judgement decision of February 20,
2020 conflicts with this judgement decision of the Tenth District Court of Appeals Case No. 19-AP-202
of January 23, 2020.
Ms. Stewart disputes the 20-AP-044 appeal decision of February 20, 2020 where the appellate
judges stated there were no grounds for the appeal (emphasis) and did not allow oral arguments or
briefing. However, in the appeal 19-AP-202 decision of January 23, 2020 the appellate judges not only
concurred there were grounds for the appeal, they also allowed oral arguments and complete briefing.
The basis of proceeding with the appeal “for grounds” or halting the appeal for “no grounds”
were made from the initial filing of the appeal(s), including the docketing statements. Therefore, Ms.
Stewart will cite the conflicting judgment or judgment(s) of law, pursuant to App. R. 25, stemming from
the initial docketing statement(s). In both cases (emphasis) the grounds for appeal were the same appeal
as a right Ohio Rev. Code Ann.§§ 2505.02 to 2505.03.
In both cases the grounds for appeal included violations of defendant-appellants' substantial right
in violation of The Constitution of the United States of America-Amendment 14 and Amendment 9. See
20AP044 “Reporting discrimination to the Ohio Civil Rights Commission as both a whistleblower and a
victim, on June 10, 2015 was and is a protected activity and this ruling imposing penalties for
participating in this protected activity violates defendant-appellants' substantial right in violation of The
Constitution of the United States of America-Amendment 14, Amendment 9 [].” See Also 19-AP-202
“Violation of The Constitution of the United States of America-Amendment 14”
In both cases the grounds for appeal also included violations of Freedom of Speech as stated in
the Constitution of the United States of America-Amendment 1. See 20AP044 5.The trial courts
judgement against Defendant-Appellant violates freedom of speech and rights for a redress of grievance
which is protected by The Constitution of the United States of America-Amendment 1. See Also 19-AP202 Sanctions against Defendant-Appellant violates freedom of speech and rights for a redress of
grievance which is protected by The Constitution of the United States of America-Amendment 1.
In both cases the ground for appeal included violation of Whistleblower laws, disparagement,
false light and retaliation. See 20AP044 6. Reporting a Crime to the Columbus police economic crime
division on July 27, 2016, as both a whistleblower and a victim, under complaint 163056538 was and is
a protected activity and this ruling imposing damage to the Defendant for participating in this protected
activity violates defendant-appellants' substantial right [].” See also 19-AP-202 (4) “VIOLATION OF
WHISTLEBLOWER LAWS, DISPARAMENT, FALSE LIGHT, RETALIATION”! 9-AP-202
“Reporting discrimination to the Ohio Civil Rights Commission as both a whistleblower and a victim,
on June 10, 2015 was and is a protected activity and this ruling imposing monetary sanctions for
participating in this protected activity violates defendant appellants' substantial right []”. See also 19AP-202 “Reporting a Crime to the Columbus police economic crime division on July 27, 2016, as both a
whistleblower and a victim, under complaint 163056538 was and is a protected activity and this ruling
imposing monetary sanctions for participating in this protected activity violates [] appellants' substantial
right [].”
Noteworthy, in addition to the forgoing same “grounds for appeal” used in both appeals, the
Respondents could have and should have brought their retribution request for Ms. Stewart’s

Page 11
VI. Statement of the Case - continued “§ B: Federal Questions Raised”.
crime reports purported as “meritless claims” into the existing court case (C.P.C. No. 15CV-001842 and
19-AP-202), However, in violation of the rules against claim/splitting, the principles of Res judicata and
the "entire controversy" doctrine they filed a separate case (C.P.C. No. 15CV-007212 and 20-AP-044) in
attempts to further punish Petitioner for same crime reports.
The Respondents subsequently argued for the same Judge Kim J Brown for the reason of being
familiar with all the facts, however this Judge has no familiarity with any facts of the case because in the
first case filed against Ms. Stewart (C.P.C. No. 15CV-001842) there has been no discovery, has been
stayed for over five (5) years (November 10, 2015) and remains stayed today.
In addition to the parallel legal grounds used in perfecting the appeal(s), both appeals were the
result of the Respondents attempts to punish and obtain retribution for the very same events of reporting
criminal activity, which if not reported, by law would constitute federal felonies including but not
limited to: Misprision of an anti-trust felony, Misprision of a felony, Conspiracy with Shumaker, Loop
& Kendrick and the controlling members of RRL, obstruction of justice and being a party to the
Criminal Enterprise in violation of federal RICO laws.
b. Fraud upon the Courts. (Quoted from Memorandum, federal questions raised, Fraud upon the
courts.)
In a first twist of events, the Respondents admitted to the multiple felonies in Arbitration. These
same multiple felonies that had been denied by the Respondents in a perjured affidavit and were used to
obstruct justice and interfere with: (1) a police investigation and (2) two insurance company
investigations with Hartford and Liberty Mutual. This knowingly perjured affidavit was signed by RRL
member Fritz Griffioen and was crafted by the law firm of Shumaker, Loop & Kendrick. However, it
accomplished its purpose: obstruction of three investigations.
In the second twist of events, the Tenth District Court of Appeals determined the Common Pleas
Court Judge Kim J Brown abused her discretion, “acted unreasonably, arbitrarily, or unconscionably”
(Id. 0A303 E64), remanded for a hearing and vacated the finding and any award of sanctions and
attorney fees associated with these crime reports. See Case No. 19-AP-202 of January 23, 2020 attached
hereto as Appendix E and quoted, in part below.
See Tfl5. “An abuse of discretion connotes more than an error of law or judgment; it implies the trial
court's attitude is unreasonable, arbitrary, or unconscionable. Blakemore v. Blakemore, 5 Ohio St.3d
217, 219 (1983). Claims of error by the trial court must be based on the trial court's actions, rather than
on the magistrate's findings. “Therefore, we may reverse the trial court's adoption of the magistrate's
decision only if the trial court acted unreasonably, arbitrarily, or unconscionably. Id.” (OA393 - E64)
See also No. 19AP-202 Id. R.0A393 - E76, ^[71 “Accordingly, we sustain appellant's first, third, and part
(C) of the seventh assignments of error to the extent they allege the trial court erred in not holding a
hearing and in not providing an opportunity to rebut its initial finding [] when she filed a claim with the
civil rights commission and a report with police.”
“On remand, the court shall hold a hearing on the September 18, 2017 Notice and exhibits thereto to
provide appellant an opportunity to rebut the initial finding of violations regarding the civil rights
commission claim and police report to determine if reconsideration is warranted.”

Page 12
VI. Statement of the Case - continued “$ B: Federal Questions Raised”.
“Furthermore, we sustain the same assignments of error to the extent they allege the trial court erred in
not reconsidering its initial finding that appellant [] when she filed the insurance claims.” “On remand,
the trial court shall vacate that finding and any award of sanctions or attorney fees pertaining thereto.
Finally, to the extent appellant's first, third, and seventh assignments of error allege additional errors or
abuse, they are rendered moot.”
In the third twist of events, a cognizable event, the Respondents controlling/ now former/Selling
members of RRL seized all of the assets of RRL and merged the company out of existence (fraudulently
under the guise of a “name change” only) in violation of the laws of the State of Ohio, the rights of the
dissenting (unredeemed member(s) Ms. Merrilee and Non-Party Norm Fountain) and the many
creditors, victims and informants seeking restitution.
Finally, one would expect a higher standard from a legal professional, as the Model Rules of
Professional conduct preamble is quoted herein: “Lawyers, as guardians of the law, play a vital role in
the preservation of society.”
If a lawyer is truly a guardian of the law and if they play a vital role in the preservation of
society, then this case is of great public interest and warrants consideration. The culpable attorneys have
committed perjury, subordinated perjury, harassed, intimidated and used scorching tactics on
collaborating victims, informants, witnesses and most visibly upon the primary inside
whistleblower/victim/informant Ms. Stewart.
It is after all, the concert of effort involving the culpable attomey(s) that has enabled this
Criminal Enterprise, Respondent Firefly, to avoid restitution and continue to commit felonies.
c. Redlining, the Fair Housing act, the Civil Rights Act, Overt Discrimination. (Quoted from
Memorandum, federal questions raised)
Firefly, doing business in 24 states, continue their criminal activity harming citizens in multiple
states with the boycotting of the underserved communities from access to product and services who do
not meet Appellee’s “affluent middle-class rules”.
d. Due Process Rights. (Quotedfrom Memorandum, federal questions raised, Due Process)
“All courts shall be open, and every person, for an injury done him in his land, goods, person, or
reputation, shall have remedy by due course of law, and shall have justice administered without denial or
delay.” Ohio Constitution, Section 16, Article I.
This denial of Appellant’s right to appeal closes access to the courts and access to the
administration ofjustice.
This appeal courts denial prior to briefing was premature at best. Ms. Stewart was denied an
opportunity to Brief the Appeals Court on the “reasonable grounds for the appeal” and therefore this
decision was made prematurely and without examination of the case docket or evidence.
See Moldovan v. Cuyahoga Cty. Welfare Dept. (1986), 25 Ohio St.3d 293, 25 OBR 343, 496
N.E.2d 466; and Cent. Ohio Transit Auth. v. Timson (1998), 132 Ohio App.3d 41, 724 N.E.2d 458.
When a state provides an appellate review process, the procedures used to implement appellate review
must comply with the constitutional dictates of due process and equal protection. Atkinson v. Grumman
Ohio Corp. (1988), 37 Ohio St.3d 80, 84, 523 N.E.2d 851, 855.”
The appellate review process denied Ms. Stewart due process and equal protection afforded by
the law of the State of Ohio and the Constitution of the United States. The Ohio Constitution, Article I,
Section 2. and Fourteenth Amendment to the United States Constitution. The clause,

Page 13
VI. Statement of the Case - continued “§ B: Federal Questions Raised”.
which took effect in 1868, provides "nor shall any State [...] deny to any person within its jurisdiction
the equal protection of the laws".
Furthermore, the denial of the opportunity to submit evidence and brief the. case denies equal
protection under the Ohio Constitution, Article I, Section 2. and Fourteenth Amendment to the United
States Constitution.
e. Crime Victims’ Rights. (Quotedfrom Memorandum, federal questions raised)
Do the rights of Crime Victims apply to a citizen in Civil Courts? Does this constitutional
protection apply to those victims of felony offenses that afforded a citizen a private right of action?
Ms. Stewart is a documented crime victim of felonies perpetrated upon her, by and through, the
concert of effort of Respondents and their culpable attomey(s).
At the Common Pleas Court, in an error in fact and law, the Respondent(s) were granted a
dismissal on Appellant’s counter claim, were granted a ruling that claimant was a meritless litigator,
resulting from the reporting of criminal felonies, and Respondents(s) were granted attorney fees. All
appealable final orders, not involving litigation, for the purpose of illegal punishment for the protected
activity of reporting crimes to the proper authorities.
This denial of the appeal violates Appellant’s rights as a crime victim, as Section 10a(B) Article
I of the Ohio Constitution provides: “The victim [ ] in any proceeding involving the criminal offense or
delinquent act against the victim or in which the victim's rights are implicated, may assert the rights
enumerated in this section and any other right afforded to the victim by law. If the relief sought is
denied, the victim [ ] may petition the court of appeals for the applicable district, which shall promptly
consider and decide the petition (emphasis).
The rights of victims of crime in pursuant to Section 10a “shall be accorded fairness, dignity, and
respect [..]” “This section does not abridge any other right guaranteed by the Constitution of the United
States or this constitution”
The Constitution of the State of Ohio Rights of victims of crimes also includes §10a; (A); (4) “to
reasonable protection from the accused or any person acting on behalf of the accused”; (7) “to full and
timely restitution from the person who committed the criminal offense [] against the victim”; (8) “to
proceedings free from unreasonable delay[]”.
Furthermore, pursuant to §10a (E) “All provisions of this section shall be self-executing and
severable, and shall supersede all conflicting state laws.”
There is a right to bring an action and to prosecute that action to final judgment. See Marquez
vs. Varela, 92 Phil. 373
f. Whistleblower Retaliation. (Quotedfrom Memorandum, federal questions raised)
Respondents conspired with concert of effort of culpable attorneys to conceal, cover-up, and
aided and abetted the Criminal Enterprise in the ongoing continuation of crimes perpetrated upon the
suppliers and the citizens within the communities they serve.
Respondents compounded their involvement by scorching activities inflicted upon Appellant in
violation of State and Federal Whistle Blower Laws designed to protect the reporter of crimes.
The greatest public concern deals with the boycotting of access to products and services in the
underserved communities because they fail to meet the “Affluent Middle-Class Rules”. The suppliers
are forced to abide by these rules or the ability to sell is shut off completely. These products are
essential to our citizen’s as they involve accessibility to preferred Auto and Home

Page 14
VI. Statement of the Case - continued “§ B; Federal Questions Raised”.
Insurance. The withholding of access to products which are required by law to drive a car and required
by a lender to buy a home is of public interest.
The Docketing Statement Provided in this appeal reiterated this fact in multiple sections,
including but not limited to: See 20AP044 ^[5. Did the judgment or order dispose of all claims by and
against all parties? [X] No This is the same parties and same set of facts and circumstances of Judge
Kim Browns Case No. 15CV-001842. See also 20AP044 *f!. Nature of Case: Plaintiffs allege "meritless
litigation" for the protected activity of reporting criminal activity and the duty to notify: 1) the Ohio
Civil Rights Commission, 2) the Columbus Police Department Economic Crime Division, 3) the
Insurance Companies and 4) to the Ohio Department of Insurance Fraud Division.
See also 20AP044 ^[10. Do you know of another case(s) pending before this court or recently
decided by this court which raises the same issue or issue(s)? [X] Yes “The Plaintiffs made allegations
against Defendant for the "SAME" protected activity of reporting criminal activity and the duty to
notify: 1) the Ohio Civil Rights Commission, 2) the Columbus Police Department Economic Crime
Division, 3) the Insurance Companies and 4) to the Ohio Department of Insurance Fraud Division. Trial
Court Judge Kim J. Brown Case No. 15CV-001842, Tenth District Court of Appeals Case No. 19-AP000202.”
20AP044 f 11. Have the parties to this appeal previously been parties to an appeal filed in this court? [X]
Yes
The result is Petitioner was denied the ability to file the details on assignments of errors pursuant
to App. Rule 16 {A), (3), (4), (6) and (7) and halted from proceeding with the appeal.
Subsequently, the motion for re-consideration further reiterated and clarified the sound grounds
for this appeal.
3. The Ohio State Court, Tenth District Court of Appeals Request for reconsideration, Case No.
20AP44, Judgement Entry 2/20/2020 (Appendix C) The Federal questions raised included: (Quoted
from Motion to re-open, federal questions raised)
Ms. Stewart sought leave to timely file the Application for reconsideration/ "Motion to Re-open"
pursuant to App. Rule 26 (1) (a) upon belief there existed good cause for review of the Journal Entry of
Dismissal and the reopening of this appeal.
Ms. Stewart believed the grounds for the appeal were sufficiently located on the docketing
statement filed with the motion to leave on January 16, 2020 (0A392, K15).
First, the decisions of trial court Judge Kim J. Brown and magistrates from case 15-CV-001842
were used by the same, Judge Kim J. Brown, in this case 18-CV-007212 to declare Ms. Stewart as a
vexatious litigator. These involved allegations of violating the “Agreed Entry” by the acts of filing as;
The Police Report, The Ohio Civil Rights Complaint and the Insurance Claims with Hartford and
Liberty Mutual.
However, as explained more fully in the forgoing paragraphs, this very Tenth District Court of
Appeals determined that Judge Kim J. Brown did not give the Ms. Stewart an opportunity to rebut its
findings and remanded back to the trial court.

Page 15
VI. Statement of the Case - continued “§ B: Federal Questions Raised”.
See Appellate Court Decision of January 23, 2020 OA393 - E46 No. 19AP-202 (C.P.C. No. 15CV1842) attached hereto as Appendix E)
The tenth district court of appeals remanded the issues on the alleged violations of the “Agreed
Entry” in case 15-CV-001842. These same issues were used in this case 18-CV-007212 to declare
Appellant vexatious. Therefore, at best, this is a premature judgement made by Judge Kim J. Brown.
All parties were well aware and fully knew the very same claims were under appeal. Involving
Ms. Stewart’s fulfilment of her duty to report White-Collar crimes to the authorities: The Police, Ohio
Civil Rights and Hartford and Liberty Mutual.
Second, the dismissal of the Ms. Stewarts’ counter complaint was an error of fact and law by
Judge Kim J. Brown as the claims are all fully documented, proven and collaborated. Furthermore, the
Respondents committed perjury, subordinated by counsel James R. Carnes of Shumaker, Loop &
Kendrick.
Third, this clear abuse of process in both trial court cases violates Federal and State of Ohio
Whistleblower laws.
Finally, there exists only one piece of litigation initiated by Ms. Stewart as an original complaint
and that is an ERISA case in the US District Court. See Merrilee Stewart, et al. v IHT Insurance Agency
Group, LLC Welfare Benefits Plan, et. al. Plaintiffs, Case No. 2:16-cv-210, Judge James L. Graham
Magistrate Judge Kimberly A. Jolson, United States District Court, Southern District of Ohio, Eastern
Division
Therefore, it is utterly impossible to declare someone a vexatious litigator based upon a false
narrative used in both cases (15-CV-001842 and 18-CV-007212) and when the Ms. Stewart initiated just
one, and only one, original litigation against Respondents.
See also Court of Appeals Ohio Tenth Appellate District, Decision of January 23, 2020 (No.
19AP-202, C.P.C. No. 15CV-1842, R.0A393 - E67) Appendix E.
See also {^|46} We agree the trial court did not give appellant an opportunity to rebut its initial
finding of violations of the Agreed Entry with regard to the civil rights commission's claim and the
police report and abused its discretion in not reconsidering its interlocutory finding of November 7, 2016
and May 17, 2017, and in entering the final decision of March 15, 2019 with regard to the insurance
claims. This is evidenced in the court's implicit rejection, without any reference thereto of the September
18, 2017 Notice and exhibits thereto and appellant's objections to the magistrates' decisions. It is also
evidenced by the court's express words in its decisions.
§ 1. Civil rights commission claim No. 19AP-202, R.0A393, E70, ^[55-60
§ 2. Police report No. 19AP-202, R.0A393, E72, ffi|61-65
§ 3. Insurance claims, No. 19AP-202, R.0A393, E74

Page 16
VI. Statement of the Case - continued “§ B: Federal Questions Raised”.
§ VIII. Conclusion R.0A393, E77: To the extent appellant alleges the trial court erred in not
granting a hearing and not providing an opportunity to rebut its initial finding that appellant violated the
Agreed Entry by filing a claim with the civil rights commission and a report with police; and to the
extent appellant alleges the trial court erred in not reconsidering its initial finding that appellant violated
the Agreed Entry by filing claims with the insurance companies, appellant's first, third, and part (C) of
her seventh assignments of error are sustained and the March 15, 2019 decision
and entry of the Franklin County Court of Common Pleas is reversed in part. The remainder of the first,
third, and seventh assignments of error, as well as the second, fifth, and sixth assignments of error are
rendered moot.
This case is remanded to the trial court in accordance with law and the instructions within this decision.
4. The Ohio State Court, Tenth District Court of Appeals Appeal as a right, Case No. 20AP44,
Judgement Entry 1/23/2020 (Appendix D).
This appeal was rejected, without opportunity of briefing or oral argument (emphasis), relying
solely on purported lack of reasonable grounds.
The purported lack of reasonable grounds was the sole reason (emphases) for the Appeal
dismissal.
The State Appeals Court (Ohio Tenth District) failed to grant due process rights solely applying
the Vexations Litigator statute to deny Petitioner access to the courts.
These final appealable orders were submitted to the appellate court and not even allowed to be
docketed or briefed. In other words, stopped at the front door.
This clearly violates individual citizen rights of due process guaranteed by the Constitution of the
United States of America, the right to hearing the facts, the right to have the citizen case fully briefed
and heard.
The docketing statement filed with the motion to leave on January 16, 2020 (0A392, K15)
included reasonable grounds for allowing this appeal to proceed.
(Quotedfrom Appeal Docketing Statementfederal questions raised)
5. This is the same parties and same set of facts and circumstances of Judge Kim Browns Case No.
15CV-001842.
7. Nature of Case: “meritless litigation” for the protected activity of reporting criminal activity and the
duty to notify: 1) the Ohio Civil Rights Commission, 2) the Columbus Police Department Economic
Crime Division, 3) the Insurance Companies and 4) to the Ohio Department of Insurance Fraud
Division.
10. Plaintiffs made allegations against Defendant for the “SAME” protected activity of reporting
criminal activity and the duty to report: 1) the Ohio Civil Rights

f
V

y

!

Page 17
VI. Statement of the Case - continued “§ B: Federal Questions Raised”.
Commission, 2) the Columbus Police Department Economic Crime Division, 3) the Insurance
Companies and 4) to the Ohio Department of Insurance Fraud Division.
See Trial Court Judge Kim J. Brown Case No. 15CV-001842, Tenth District Court of Appeals Case No.
19-AP-000202.
16.Briefly summarize the assignments of error presently anticipated to be raised on appeal: 1) This claim
and judgement violated the rules against claim/splitting, the principles of Res judicata and the "entire
controversy" doctrine; 2) Reporting discrimination to the Ohio Civil Rights Commission as both a
whistleblower and a victim, on June 10, 2015 was and is a protected activity and this ruling imposing
penalties for participating in this protected activity violates defendant-appellants’ substantial right in
violation of The Constitution of the United States of America-Amendment 14, Amendment 9 and
Amendment 10; 3) The trial courts dismissal of the counterclaim was in error of fact and law; 4) The
trial court error in law, without regard to affirmative defense - Arbitration; 5)The trial courts judgement
against Defendant-Appellant violates freedom of speech and rights for a redress of grievance which is
protected by The Constitution of the United States of America-Amendment 1; 6) Reporting a Crime to
the Columbus police economic crime division on July 27, 2016, as both a whistleblower and a victim,
under complaint 163056538 was and is a protected activity and this ruling imposing damage to the
Defendant for participating in this protected activity violates defendant-appellants’ substantial right in
violation of The Constitution of the United States of America-Amendment 14, Amendment 9 and
Amendment 1
Alternatively, as provided by R.C. § 2323.52 (A) (3) Appellant moves this court to grant
continuation by her attorney, to file his appearance and proceed on behalf of Appellant on this appeal, as
‘Vexatious litigator’ does not include a person who is authorized to practice law in the courts of this
state under the Ohio Supreme Court Rules for the Government of the Bar of Ohio. Note: No response
was received.
VII. Reason for Granting the Writ
Petitioner Merrilee Stewart moves this Supreme Court of these United States of America to
decide these very important questions of constitutional and federal law protections that were not, but
should be, settled by the State Courts.
The State Court of last resort, the Ohio Supreme Court, refused to take a look at the National
Significance of this case or the disregard of the lower Common Pleas Court to the orders of the Appeals
Court.
The greatest public concern deals with the boycotting of access to products and services in the
underserved communities because they fail to meet the “Affluent Middle-Class Rules”. The suppliers
are forced by the Respondents to abide by these rules or the ability to sell is shut off completely. These
products and services are essential to our citizen’s as they involve accessibility to preferred Auto and
Home

%

\

Page 18
Insurance. The withholding of access to products which are required by law to drive a car and required
by a lender to buy a home is of great public interest.
VIII. Conclusion
Petitioner Merrilee Stewart prays for at least a chance at justice as is guaranteed to all citizens of these
United States of America.
For the foregoing reasons, the petition for a writ of certiorari should be granted.
Respectfully Submitted,
Merrilee Stewart
/s/ Merrilee Stewart
Merrilee Stewart
182 Corbins Mill Drive
Dublin, Ohio 43017
Phone: 614 395-9071
Fax: 740 965-4437
Email: Merrilee@TRGUnited.com
Merrilee Stewart, Pro Se on behalf of
Merrilee Stewart, Petitioner

